John Elwood
+1 202.942.5992 Direct
John.Elwood@arnoldporter.com

March 25, 2020

VIA REGISTERED MAIL AND ELECTRONIC FILING
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street N.E.
Washington, DC 20543
Re:

Sokolow v. PLO (No. 19-764)

Dear Mr. Harris:
Pursuant to this Court’s Order dated March 19, 2020, petitioners in the
above-captioned case respectfully request that the Court delay distribution of the
petition for a writ of certiorari until April 8, 2020.
This case, together with Klieman v. PLO (No. 19-741), is currently
scheduled for distribution by the Clerk of the Court on April 1, 2020. Logistical
difficulties relating to COVID-19 have delayed the preparation of replies in support
of both petitions, and have also caused professional printing staff to require
additional time for final preparation of the replies. We understand petitioners in
Klieman have requested a comparable delay. The one-week delay will permit
petitioners to prepare submissions that will materially assist the Court in its
consideration of these cases.
The respondents in both cases are identical, and counsel for respondents
has consented to the relief requested in this motion.
Sincerely,
/s/ John P. Elwood
John P. Elwood
Counsel of Record
CC: Counsel for respondents via e-mail

Arnold & Porter Kaye Scholer LLP
601 Massachusetts Ave, NW | Washington, DC 20001-3743 | www.arnoldporter.com

